           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION




    TICKET TO WORK – OPERATIONS
 SUPPORT MANAGER FOR VOCATIONAL
   REHABILITATION AGENCIES AND
      EMPLOYMENT NETWORKS

  September 2006   A-02-06-16017




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                            SOCIAL SECURITY
MEMORANDUM

Date:   September 27, 2006                                                                     Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Ticket to Work – Operations Support Manager for Vocational Rehabilitation Agencies
        and Employment Networks (A-02-06-16017)


        OBJECTIVE
        Our objective was to conduct a performance review of the Social Security
        Administration (SSA) and its contractor MAXIMUS, Inc. to ensure contract objectives
        were being met and were in accordance with the Ticket to Work and Work Incentives
        Improvement Act of 1999. 1

        BACKGROUND

        The Ticket to Work and Self-Sufficiency Program (Ticket Program) was established by
        the Ticket to Work and Work Incentives Improvement Act of 1999. 2 The Ticket Program
        provides eligible Disability Insurance beneficiaries and Supplemental Security Income
        recipients 3 with tickets, which can be used to obtain Vocational Rehabilitation Agency
        (VRA) or Employment Network (EN) services. The program is intended to increase the
        access and quality of rehabilitation and employment services available to disabled
        beneficiaries. It is designed to provide beneficiaries with greater freedom and choice of
        service providers by creating competition among providers to offer high quality services
        that are responsive to beneficiary needs. The program also gives providers incentives
        to deliver services in the most efficient and appropriate manner to achieve desired
        outcomes. To date, SSA has mailed over 11.9 million tickets to disabled beneficiaries.
        Once a disabled beneficiary receives a ticket in the mail, he or she can assign the ticket
        to the VRA or EN he or she chooses to work with in an effort to return to work. As of
        August 4, 2006, SSA’s website reported approximately 142,900 tickets have been
        assigned (133,000 tickets have been assigned to VRAs and 9,900 tickets have been
        assigned to ENs).
        1
            Public Law No. 106-170.
        2
            Public Law No. 106-170 § 101.
        3
          From this point forward in the report, the term “beneficiary” is used to encompass both Disability
        Insurance beneficiaries and Supplemental Security Income recipients.
Page 2 – The Commissioner


SSA contracted with MAXIMUS, Inc. to serve as its Ticket Program Operations Support
Manager (OSM). 4 The OSM is responsible for overseeing and supporting the
processes necessary to sustain ongoing program operations. OSM performance is
monitored by a Project Officer (PO) at SSA’s, Office of the Disability and Income
Security Programs, Office of Employment Support Programs. In this review, we looked
at the OSM’s performance in Calendar Year (CY) 2005, as it pertained to the tasks
within the contract. We selected the following five contractual tasks related to VRAs
and ENs. 5 They are as follows:

      •   Task 9 – Individual Work Plans
      •   Task 10 – VRA and EN Oversight
      •   Task 12 – Dispute Resolution
      •   Task 13 – Periodic Outcome Reporting
      •   Task 14 – Response to Sensitive Inquiries

Within each task, there are multiple objectives that the OSM must complete to
successfully meet the task and fulfill the contract. For example, under task 12, Dispute
Resolution, the OSM must: notify SSA of any disputes the OSM has with a beneficiary
or an EN; resolve any disputes between beneficiaries and ENs; advise beneficiaries and
ENs of mediation services available; refer to SSA disputes the OSM can not resolve;
and provide summaries of all dispute resolutions to SSA.

RESULTS OF REVIEW
We found that SSA met its responsibility to oversee the contract with the OSM for the
tasks we reviewed. We also found that OSM successfully met most of the contract
objectives in the tasks we reviewed and was properly managing and overseeing VRA
and EN activities. The OSM generally fulfilled all of the objectives related to
individualized plans for employment and VRA and EN oversight (tasks 9 and 10) and
most of the objectives related to dispute resolution, periodic outcome reporting, and
sensitive inquiries (tasks 12, 13, and 14). The OSM could improve its management of
the Ticket Program, and better assist SSA in its oversight of the contract and the Ticket
Program, by providing SSA with summaries of dispute resolutions and sensitive
inquiries activities (tasks 12 and 14) in the Monthly Contract Progress reports that it
provides to the Agency, and by securing outcome reports from all VRAs and ENs
(task 13).




4
    OSM Contract No. SS00-05-60079.
5
    OSM Contract No. SS00-05-60079, § C-3.
Page 3 – The Commissioner

TASK 12 – DISPUTE RESOLUTION

According to the contract, the OSM is responsible for facilitating resolutions for disputes
between beneficiaries and ENs and SSA. Additionally, the OSM is required to provide a
summary of all dispute resolution activities to SSA in Monthly Contract Progress
reports. 6 The Monthly Contract Progress reports for CY 2005 did not summarize any
dispute resolution activities.

Our review of the OSM’s telephone call log, which lists calls related to the Ticket
Program, identified 580 dispute-related calls. The calls were coded by OSM’s
telephone operators as disputes between beneficiaries and ENs (398), VRAs (169) or
SSA (13). Upon our inquiry, the OSM stated that all of the dispute calls were
successfully resolved and did not warrant the attention of the PO. While the OSM
retained detailed information on disputes in its telephone call log, it did not summarize
this information in the monthly reports as required by the contract. 7 Without the
summaries of the dispute resolutions, SSA was unable to determine if the OSM properly
handled the disputes.

In its response to our draft report, SSA informed us that it did not believe that the OSM
was out of compliance with task 12. It stated that there were three levels of dispute
resolution defined in the OSM contract. The first level is the EN internal dispute
resolution process. If a dispute cannot be resolved at this level, it can be elevated to
the second level, which is resolution by the OSM. If the dispute cannot be resolved by
the OSM, it can be elevated to the third level, which is resolution by SSA - and SSA’s
decision is final. SSA stated that it was only interested in disputes that cannot be
resolved by the disputing parties, thus requiring a higher level of intervention. It further
stated that, to date, no dispute has ever gone past the first level; consequently,
MAXIMUS has had nothing to report. It concluded that the OSM retained detailed
information on disputes in its telephone call log, so the Agency could review that data in
the future if it determined that a review of the lower level dispute resolution activities
was needed.
TASK 13 – PERIODIC OUTCOME REPORTING

Annual Periodic Outcome Reports (APOR) by VRAs and ENs are due to the OSM no
later than 30 days after the end of the CY. APORs document outcomes achieved by
each VRA and EN with respect to services provided to beneficiaries and are to be made
available for public access. Our review found that VRAs or ENs did not submit their
APORs for CY 2005 by February 1, 2006, as required. A subsequent review through
early March 2006 found that 311 of 1,455 of the VRAs and ENs (21 percent) submitted
APORs during February and early March.



6
    OSM Contract No. SS00-05-60079, task 12, §§ B and F.
7
    OSM Contract No. SS00-05-60079, task 12, § F.
Page 4 – The Commissioner

According to the contract, the OSM is responsible for ensuring that ENs provide public
access to their APORs. 8 Beneficiaries rely on this information to find local agencies that
participate in the Ticket Program and to learn of the services they provide. If the OSM
is unable to ensure public access to APORs, beneficiaries lose a source of information
that may help them make an informed decision as to which agency to assign their ticket.

The OSM stated that the cause of delinquent and missing APORs was submission
through the mail system, often delaying the time they reach the OSM, and/or ENs and
VRAs considered this task a lower priority. Additionally, the OSM reported that most of
the ENs who did not send in APORs were non-active—they have never had a
beneficiary assign a ticket to them.

The OSM notified the PO of the service providers that did not submit their
CY 2005 APORs and stated that it will administer any corrective actions warranted by
the PO. In addition, the OSM reported to us that it is in the process of developing a
method that will allow VRAs and ENs to electronically submit APORs. This would
replace the current process of relying on the VRAs and ENS to mail hardcopy reports to
the OSM.

TASK 14 – SENSITIVE INQUIRIES

According to the contract, sensitive inquiries are inquiries from public officials, the
President’s executive staff, Congressional delegates and staff, and the news media.
Upon receipt of a sensitive inquiry, the OSM is required to immediately notify the PO by
telephone and then follow up electronically. 9 The PO, in turn, advises the OSM of
inquiry response actions, as needed. The OSM is also required to provide a summary
and disposition of sensitive inquiries in the Monthly Contract Progress reports.

We identified 50 sensitive inquiries through our review of emails (7) and phone
calls (43) received by the OSM. Of the 50 sensitive inquiries identified, we identified
written documentation for 6 that showed coordination between the OSM and the PO.
We could not identify any other documentation demonstrating communication between
SSA and the OSM for the remaining 44 sensitive inquiries. The OSM stated that most
sensitive inquiries pertained to information requests and did not warrant the attention of
the PO.

In addition, the OSM failed to notify SSA of sensitive inquiries at the time they were
received, and the OSM did not provide a summary and disposition of the sensitive
inquires in the Monthly Contract Progress report it provides to SSA. The failure to notify
SSA of the inquiries and summarize their disposition in the monthly reports makes it
difficult for the PO to ensure that sensitive inquiries are handled efficiently and
effectively.

8
    OSM Contract No. SS00-05-60079, task 13, § B.
9
    OSM Contract No. SS00-05-60079, task 14, § A. 1.
Page 5 – The Commissioner

The following are examples of sensitive inquiries that we obtained from the OSM
telephone call log, which were not forwarded to the PO:

   •   March 7, 2005 – A Washington Congressman’s office called regarding a letter
       received from a beneficiary who sought assistance to resolve a complaint with a
       VRA.

   •   May 24, 2005 – The Illinois Governor’s office called regarding a blind beneficiary,
       who had not received assistance despite repeated attempts to contact
       MAXIMUS.

   •   July 29, 2005 – A California Senator’s office called regarding a dispute between
       a beneficiary and an EN, in which the EN had not responded to the beneficiary’s
       concerns.

CONCLUSION AND RECOMMENDATIONS
Based on the results of our review, we concluded that the OSM could take steps to fully
meet its contractual obligations to SSA. By meeting all of the objectives in the tasks
related to dispute resolution, outcome reporting, and sensitive inquiries, the OSM will
help SSA ensure that the Ticket Program is operating effectively and that the needs of
disabled beneficiaries are met as they take steps to return to work. To improve Ticket
Program management and adherence to the contract, we recommend SSA:

1. Request the OSM to follow the contract requirement to provide summaries of dispute
   resolution activities in Monthly Contract Progress reports. (Based on SSA’s
   response to our draft report, we withdrew this recommendation.)

2. Monitor the OSM to ensure it is actively obtaining the required APORs from VRAs
   and ENs.

3. Consider changing the submission process for APORs, possibly exempting
   non-active VRAs and ENs from the requirement to submit APORs.

4. Request the OSM to timely notify the PO of sensitive inquiries and summarize the
   status of all sensitive inquiries in Monthly Contract Progress reports.

AGENCY COMMENTS AND OIG RESPONSE

In its written response to our draft report, the Agency concluded that the OSM was in
agreement with the contract in regards to providing summaries of dispute resolution
activities in the Monthly Contract Progress reports. It found that the OSM had only
handled low level disputes and that they were resolved appropriately. The Agency
stated that it only had a need for information on the disputes that cannot be resolved by
the disputing parties, thus requiring a higher level of intervention. It noted that the OSM
Page 6 – The Commissioner

retained detailed information on disputes in its telephone call log, so the Agency could
review that data in the future if it later determined that a review of the lower level dispute
resolution activities was in order. Accordingly, the need for the OSM to report low level
dispute information in the Monthly Contract Progress reports was not warranted. Based
on this information, we withdrew our first recommendation. The Agency agreed with the
remaining recommendations. The full text of SSA’s comments is included in
Appendix C.




                                                  S
                                                  Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgements
                                                               Appendix A

Acronyms
APOR             Annual Periodic Outcome Report
CY               Calendar Year
EN               Employment Network
OSM              Operations Support Manager
PO               Project Officer
SSA              Social Security Administration
Ticket Program   Ticket to Work and Self-Sufficiency Program
VRA              Vocational Rehabilitation Agency
                                                                        Appendix B

Scope and Methodology
To accomplish our objective, we:

   • Reviewed the regulations for the Ticket to Work and Self-Sufficiency Program
      (Ticket Program) authorized by the Ticket to Work and Work Incentives
      Improvement Act of 1999 (20 Code of Federal Regulations, Part 411).

   • Reviewed Ticket Program contracts, applicable during Calendar Year (CY) 2005,
      between the Social Security Administration (SSA) and MAXIMUS as follows:

      •   Contract Number 0600-00-60020 for our audit scope period January 1, 2005
          through September 28, 2005.
      •   Contract Number SS00-05-60079 for our audit scope period
          September 29, 2005 through December 31, 2005.

      Our review of the contracts showed that the task objectives in each that we
      examined did not change from one contract to the next.

   • Coordinated with SSA and MAXIMUS, the Ticket Program Operations Support
      Manager (OSM), personnel to retrieve and analyze the documentation necessary
      to complete our audit steps.

   In addition to the steps listed above, we took the following steps for the tasks within
   the contract we reviewed.

   • Task 9 – Individual Work Plans: We selected a random sample of
      200 individual work plans for employment. However, upon reviewing the first
      50 in order of selection, we did not find any reportable conditions, and therefore,
      we are confident no findings of a substantial nature would be present in the
      population-at-large. We reviewed whether the OSM ensured that submitted
      plans were consistent with the contract requirements. Specifically, we examined
      the plans to determine whether the Employment Network (EN) developed the
      plan in partnership with the beneficiary, provided choices for the selection of an
      employment goal with specific services needed to achieve the goal, and that the
      beneficiary approved the plan and the assignment of his/her ticket.




                                            B-1
   •   Task 10 – Vocational Rehabilitation Agency (VRA) and EN Oversight: We
       selected a random sample of 200 VRAs and ENs. However, upon reviewing the
       first 50 in order of selection, we did not find any reportable conditions, and
       therefore, we are confident no findings of a substantial nature would be present
       in the population-at-large. We reviewed whether the OSM provided oversight to
       ensure that service providers complied with contractual obligations. Specifically,
       we examined OSM data to ensure that service providers were fully and
       accurately accounted for in terms of location, contact information, geographic
       coverage areas and services provided.

  •    Task 12 – Dispute Resolution: We reviewed the OSM telephone call log for
       CY 2005. The log listed over 300,000 calls, which were coded by telephone
       operators. We examined the log for dispute-related codes and determined what
       actions the OSM took to resolve the disputes.

  •    Task 13 – Periodic Outcome Reporting: We reviewed the Annual Periodic
       Outcome Reports (APOR) to determine if they were submitted timely by VRAs
       and ENs to the OSM. We reviewed APORs to ensure that they were completed
       and signed by service providers. Specifically, the reports detailed specific
       outcomes achieved by service providers for each beneficiary.

  •    Task 14 – Response to Sensitive Inquires: We reviewed the OSM telephone
       call log for CY 2005. We examined the log to detect and analyze all calls that
       were categorized as “sensitive inquiries.” Additionally, we reviewed sensitive
       inquiry emails provided by the OSM and SSA. We determined what actions were
       taken by the OSM and SSA to address these inquiries.

We conducted our audit at MAXIMUS in Alexandria, Virginia and at the Office of the
Inspector General, New York Office of Audit, from January through March 2006. The
SSA entities audited were the Office of Disability and Income Security Program’s Office
of Employment Support Programs, and the Office of Budget, Finance and
Management’s Office of Grants and Acquisitions. Our audit was performed in
accordance with generally accepted government auditing standards.




                                           B-2
                  Appendix C

Agency Comments
                                        SOCIAL SECURITY

MEMORANDUM                                                                      0609-0011669


Date:      September 21, 2006                                                   Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Ticket to Work- Operations Support
           Manager for Vocational Rehabilitation Agencies and Employment Networks” (A-02-06-16017)
           -- INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Let me know if we can be of further assistance. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff on extension 54636.

           Attachment:
           SSA Response




                                                        C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "TICKET TO WORK - OPERATIONS SUPPORT MANAGER FOR
VOCATIONAL REHABILITATION AGENCIES AND EMPLOYMENT NETWORKS”
(A-02-06-16017) -- INFORMATION

Thank you for the opportunity to review and comment on the draft report. We are pleased that
SSA has met its responsibility to oversee the contract with the Ticket to Work Program
Operations Support Manager (OSM) and that the OSM has successfully met most of the contract
objectives for the tasks reviewed.

We agree that three of the four recommendations resulting from this review provide ways in
which the OSM could improve its management of the Ticket to Work Program, and that
implementation of these recommendations could lead to improved oversight. Also, SSA will be
using the software and the database currently supported by MAXIMUS, Inc. Planned
automation includes call center support that will monitor the nature and disposition of telephone
inquiries, Employment Network (EN) Periodic Outcome Reports and the Dispute Resolution
Process. SSA will then have full access to all Ticket to Work data and will be able to assess
progress in several areas.

We disagree with recommendation 1, requesting that the OSM follow the contract requirement to
provide summaries of dispute resolutions, because we do not believe that the OSM is out of
compliance with this requirement. Three (3) levels of dispute resolution are defined in the OSM
contract. Level 1 is the EN’s internal dispute resolution process. If the dispute cannot be
resolved at this level, it can be elevated to level 2, resolution by the OSM. If the dispute cannot
be resolved by the OSM, it can be elevated to level 3, SSA - and SSA’s decision is final. While
we appreciate OIG’s concern that, without summaries of the dispute resolutions, SSA is unable
to determine if the OSM properly handled the disputes, the Agency is only interested in disputes
that cannot be resolved by the disputing parties, thus requiring a higher level of intervention. To
date, no dispute has ever gone past the first level; consequently, MAXIMUS has had nothing to
report. Accordingly, we believe MAXIMUS, Inc. is in compliance with the requirements of
Task 12 (Dispute Resolution). Finally, should the Agency later determine that a review of the
lower level dispute resolution activities is in order, the OSM has retained detailed information on
disputes in its telephone call log, as stated in the report.

Our specific responses to the report's recommendations are provided below.

Recommendation 1

Request the OSM to follow the contract requirement to provide summaries of dispute resolution
activities in Monthly Contract Progress reports.




                                               C-2
Response:

We disagree. We do not believe that the OSM is out of compliance. As noted above, we believe
MAXIMUS is in compliance with the requirements of Task 12 (Dispute Resolution). The intent
of the requirement is that the OSM summarize in the monthly report only those disputes elevated
beyond the EN internal dispute resolution process to the OSM level. To date, no dispute has
gone past level 1 and, therefore, MAXIMUS has had nothing to report.

Recommendation 2

Monitor the OSM to ensure it is actively obtaining the required Annual Periodic Outcome
Reports (APOR) from Vocational Rehabilitation Agencies (VRA) and ENs.

Response:

We agree. While SSA agrees that MAXIMUS has not been obtaining all of the required APORs
from ENs and State VRAs, this lack of success has not been for lack of effort on their part. The
current process is simple. MAXIMUS generates the APORs for every EN and State VRA using
information available in the system and forwards the reports to them for
verification/concurrence. For reasons cited in the audit report, there has been little incentive or
sense of urgency for ENs/State VRAs to respond to MAXIMUS. As explained in our response
to recommendation 3 below, SSA has reexamined the current process and will take steps to
ensure that an APOR is in place for every EN and State VRA.

Recommendation 3

Consider changing the submission process for APORs, possibly exempting non-active VRAs and
ENs from the requirement to submit APORs.

Response:

We agree. Although not finalized, SSA plans to revise the submission process. Under the new
process, MAXIMUS will continue to generate the APORs and request verification/concurrence
by the ENs and State VRAs. For those organizations that do not respond, MAXIMUS will
assume acceptance. SSA does not believe it is advisable to exempt inactive ENs or State VRAs
since inactivity, in itself, is an outcome of which the public should be aware. The Ticket to
Work Program is market-driven. If Ticket holders begin avoiding those ENs that are inactive,
those ENs will be forced to better market their services or fall by the wayside.

Recommendation 4

Request the OSM to timely notify the Project Officer (PO) of sensitive inquiries and summarize
the status of all sensitive inquiries in Monthly Contract Progress reports.




                                               C-3
Response:

We agree. We believe this issue has more to do with SSA clearly defining what constitutes a
“sensitive” inquiry than MAXIMUS’ failure to comply with contract requirements. Sensitivity
is not defined solely by the origin of the inquiry, but by the nature of the inquiry and level of
effort required to respond. Generally speaking, MAXIMUS forwards all media requests to SSA
because MAXIMUS is not contracted to speak for the Agency. However, congressional or other
high-level inquiries that can be resolved through a simple action, e.g., sending out a brochure or
contacting a beneficiary, are not in themselves sensitive because they originated with a
congressional or other high-level office. The intent of the requirement of Task 14 (Sensitive
Inquiries) is that the OSM refer to SSA (and subsequently document) only those inquiries whose
nature and response level is truly sensitive, requiring an extraordinary degree of attention. We
will review with MAXIMUS the requirements of this task, and clearly define our expectations to
ensure that all truly sensitive inquiries are referred to us in a timely manner and fully
documented in the monthly contract progress report.




                                               C-4
                                                                      Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Tim Nee, Director, New York Office of Audit, (212) 264-5295

   Vicki Abril, Audit Manager, New York Office of Audit, (212) 264-0504

Acknowledgments

In addition to those named above:

   Abraham Pierre, Auditor

   Denise Molloy, Program Analyst

   Brennan Kraje, Statistician

   Annette DeRito, Writer-Editor

   Cheryl Robinson, Writer-Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification
Number A-02-06-16017.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
